DEPARTMENT OF HOMELAND SECURITY
`


     Office of Inspector General


    Progress Has Been Made But More Work 

     Remains in Meeting Homeland Security 

     Presidential Directive 12 Requirements 





OIG-08-01                      October 2007
                                              1
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      October 15, 2007

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the progress DHS has made and the actions needed to comply with Homeland
Security Presidential Directive 12 and implement Federal Information Processing Standards 201
requirements. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents/Abbreviations 


  Executive Summary ...................................................................................................................1 


  Background ................................................................................................................................2 


  Results of Audit .........................................................................................................................4 


       Actions Taken To Implement HSPD-12 ..........................................................................4 


       Better Management of HSPD-12 Implementation Is Needed ........................................7 

         DHS Is Behind In Its Implementation Schedule and May Not Meet OMB 

         Milestones .......................................................................................................................7 

         Requirements for PIV Card Usage Have Not Been Determined ....................................8 

         Costs to Implement HSPD-12 Have Not Been Assessed................................................9 

         Agency Head Has Not Accredited PIV-I Processes .....................................................10 

         PCI Services Must Be Re-accredited ............................................................................10 

         Component Implementation Guidance Needs to be Updated .......................................12 

         PIV Card Issuance Statistics Not Posted on Public Website ........................................13 


       DHS Is Not Ready to Issue HSPD-12 Compliant Cards ..............................................14 

         PMO Needs to Bring Headquarters System to Production Readiness..........................14 

         Certification of ICISS Was Inadequate and Not Independent ......................................15 


       Recommendations..............................................................................................................16

       Management Comments and OIG Analysis .....................................................................17 



Appendices
  Appendix A:            Purpose, Scope, and Methodology .................................................................19 

  Appendix B:            Management Comments to the Draft Report ................................................20 

  Appendix C:            Example of a PIV Card ..................................................................................26 

  Appendix D:            OMB Form I-9 Lists of Acceptable Documents ............................................27 

  Appendix E:            Major Contributors to this Report ..................................................................28 

  Appendix F:            Report Distribution.........................................................................................29 





   Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements
Table of Contents/Abbreviations 


Abbreviations

  DHS                Department of Homeland Security
  FIPS               Federal Information Processing Standards
  GSA                General Services Administration
  HSPD-12            Homeland Security Presidential Directive 12
  ICISS              Identification and Credential Issuing Station and System
  NIST               National Institute of Standards and Technology
  OCIO               Office of the Chief Information Officer
  OIG                Office of Inspector General
  OMB                Office of Management and Budget
  PCI                Personal Identity Verification Card Issuer
  PIN                Personal Identification Number
  PIV                Personal Identity Verification
  PMO                Program Management Office
  SP                 Special Publication




   Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                          We audited the Department of Homeland Security to determine whether the
                          department has effectively managed the implementation of Homeland Security
                          Presidential Directive 12 (HSPD-12). HSPD-12 requires the development and
                          agency implementation of a mandatory, government-wide standard for secure
                          and reliable forms of identification for federal employees and contractors. We
                          determined whether the department’s HSPD-12 implementation plan is
                          adequate; policies and procedures to implement HSPD-12 requirements are
                          adequate; and security controls implemented to protect the privacy of personal
                          data collected and processed by HSPD-12 systems are effective.

                          The department has taken some actions to implement HSPD-12 requirements.
                          For example, the department has established a Program Management Office to
                          provide guidance and logistic support to implement HSPD-12 requirements at
                          its headquarters and components. The Program Management Office developed
                          a three-phase implementation plan and a procedures reference book that
                          documents the processes to enroll applicants and issue credentials. Further, the
                          Program Management Office prepared a privacy impact assessment providing
                          details about personally identifiable information collected for issuing
                          credentials. The privacy impact assessment described how the information
                          may be accessed and how it will be securely stored. Furthermore, an HSPD-12
                          Council was established to facilitate the implementation of HSPD-12
                          throughout the department.

                          While the completion of these tasks helps the Department of Homeland
                          Security fulfill some of its HSPD-12 requirements, more work remains. The
                          department must devote further attention to ensure that it meets Office of
                          Management and Budget established time frames for issuing HSPD-12
                          compliant cards to its employees and contractors. For example, the department
                          is not scheduled to complete its HSPD-12 implementation until 2010, which is
                          2 years after the Office of Management and Budget’s mandated deadline for all
                          agencies. The department is also experiencing delays in implementing a
                          technical solution and issuing compliant cards to its employees and
                          contractors. In addition, the department has not assessed the total cost to
                          implement HSPD-12 across the department and has not identified which
                          facilities will require compliant cards in order to gain physical access, nor has
                          it determined whether they will also be used for accessing information
                          systems. Finally, the department must certify and accredit the headquarters
                          and each component’s personal identity verification card issuer service, as well
                          as the information system that supports the service prior to implementation.

  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                      Page 1
                            We are making seven recommendations to the Under Secretary for
                            Management. While the department agreed to six of the recommendations, it
                            did not concur with our recommendation to report its card issuance statistics on
                            DHS’ website. The department’s response is summarized and evaluated in the
                            body of this report and included, in its entirety, as Appendix B.

Background
                            On August 27, 2004, the President of the United States issued Homeland
                            Security Presidential Directive 12 (HSPD-12), Policy for a Common
                            Identification Standard for Federal Employees and Contractors. The purpose
                            of HSPD-12 is to enhance security, increase government efficiency, reduce
                            identity fraud, and protect personal privacy by establishing a mandatory,
                            government-wide standard for secure and reliable forms of identification
                            issued by the federal government to its employees and contractors (including
                            contractor employees). In addition, HSPD-12 requires the Department of
                            Commerce to promulgate a common standard for identification credentials,
                            issued by federal departments and agencies for the purpose of gaining
                            physical access to federally controlled facilities and logical access to federally
                            controlled information systems.

                            On February 25, 2005, the National Institute of Standards and Technology
                            (NIST) promulgated Federal Information Processing Standards (FIPS) 201,
                            Personal Identity Verification (PIV) of Federal Employees and Contractors,
                            to satisfy the Department of Commerce’s HSPD-12 requirement. FIPS 201
                            establishes the standard for secure and reliable forms of identification cards,
                            performing background checks of government employees and contractors, and
                            issuing identification cards used for entering government facilities and for
                            accessing information systems. See Appendix C for an example of the front
                            of a PIV card.

                            FIPS 201 is composed of two parts, PIV-I and PIV-II. PIV-I describes the
                            minimum requirements for a federal personal identification system that meets
                            the control and security objectives of HSPD-12, including personal identity
                            proofing, registration, and issuance. PIV-II provides detailed technical
                            specifications to support the control and security objectives in PIV-I, as well
                            as interoperability of PIV cards and systems among federal departments and
                            agencies.1 The physical card characteristics, storage media, and data elements
                            that make up identity credentials are specified in this standard. In addition,
                            NIST has issued FIPS 201 companion publications that specify the interfaces
                            and card architecture for storing and retrieving identity credentials from a
1
 PIV card is a smart card that contains stored identity credentials (e.g., a photograph, digital certificate and
cryptographic keys, or digitized fingerprint representations) that is issued to an individual whose identity of the
cardholder can be verified against the stored credentials by another person or through an automated process.


    Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                           Page 2
                            smart card, the requirements for collecting and formatting biometric
                            information, PIV card application, and the interoperability between the card
                            and reader.2

                            The Office of Management and Budget (OMB) is responsible for ensuring
                            that agencies comply with HSPD-12. OMB issued memorandum M-05-24 on
                            August 5, 2005 with instructions to federal agencies for implementing
                            HSPD-12 and FIPS 201. According to OMB’s M-05-04 instructions, the
                            issuing of compliant cards to employees and contractors will be achieved in
                            two phases with established milestones for each phase. Also included in its
                            instructions to agencies, OMB emphasized that successful implementation of
                            HSPD-12 and FIPS 201 would increase the security of federal facilities and
                            information systems. OMB warned that inconsistent agency approaches to
                            facility security and computer security are inefficient and costly, and increase
                            risks to the federal government. Subsequently, OMB issued three memoranda
                            with additional instructions to agencies on implementing HSPD-12.3 Figure 1
                            shows HSPD-12 implementation milestones.

                            Figure 1: HSPD-12 Implementation Milestones

                                    Date                                   Requirements
                             October 27, 2005            Comply with PIV-I.
                             October 27, 2006            Comply with PIV-II.
                             October 27, 2007            Verify and/or complete background investigations
                                                         and issue PIV cards for all employees with less
                                                         than 15 years of government service.
                             October 27, 2008            Verify and/or complete background investigations
                                                         and issue PIV cards for all employees with more
                                                         than 15 years of government service.

                            The General Services Administration (GSA), in collaboration with the Federal
                            Identity Credentialing Committee, the Federal Public Key Infrastructure
                            Policy Authority, OMB, and the Smart Card Interagency Advisory Board
                            developed the Federal Identity Management Handbook. This handbook aids
                            agencies in implementing HSPD-12 and FIPS 201, and includes guidance on
                            specific courses of action, schedule requirements, acquisition planning,
                            migration planning, lessons learned, and case studies. In addition, GSA
                            issued a memorandum on August 10, 2005 to agency officials that specified
                            standardized procedures for acquiring FIPS 201-compliant commercial

2
  Smart card is a tamper-resistant security device, which is about the size of a credit card, and relies on an integrated

circuit chip for information storage and processing. 

3
  M-06-06, Sample Privacy Documents for Agency Implementation of Homeland Security Presidential Directive 

(HSPD) 12, February 17, 2006; M-06-18, Acquisition of Products and Services for Implementation of HSPD-12,

June 30, 2006; and M-07-06, Validating and Monitoring Agency Issuance of Personal Identity Verification Credentials, 

January 11, 2007. 



    Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                           Page 3
                            products that have passed NIST’s conformance tests. According to the GSA
                            guidance, agencies are required to use standardized acquisition procedures
                            when implementing their FIPS 201 compliant systems. In addition, GSA also
                            offers a shared services solution to federal agencies that includes enrollment,
                            identity management, card management, card production (printing and
                            personalization), public key infrastructure, and issuance. Background
                            investigations, system integration, physical access control systems, and logical
                            access control systems remain the responsibility of the participating agencies.

                            The Office of Security leads the department-wide program for implementation
                            of HSPD-12. The Office of the Chief Information Officer (OCIO) is
                            responsible for the technical aspects of the program. The DHS Office of
                            Security established the headquarters HSPD-12 Program Management Office
                            (PMO) in March 2006, with the mission to implement HSPD-12 at
                            headquarters and to guide component implementation efforts across DHS.4
                            The PMO consists of a program manager and six staff (one federal employee,
                            five contractors). The PMO is responsible for implementing a process to issue
                            PIV cards to approximately 70,000 headquarters employees and contractors.
                            The remaining eight components are responsible for issuing PIV cards to their
                            own approximately 140,000 employees and contractors.5 According to the
                            PMO program manager, the United States Coast Guard is exempted from the
                            requirement to use the technical solution developed at headquarters, as it will
                            issue Department of Defense’s PIV cards.

Results of Audit
         Actions Taken To Implement HSPD-12
                            DHS has taken several actions to implement HSPD-12 requirements. The
                            PMO developed an implementation plan that details the objectives, priorities,
                            parameters, and outputs to achieve its mission and enable DHS to comply
                            with HSPD-12 requirements. The plan also details a schedule and outlines
                            those actions that must take place in order to implement HSPD-12 at DHS
                            headquarters. The PMO has worked collaboratively with the OCIO to
                            develop requirements and policies, and to implement the technical solution to
                            issue HSPD-12 compliant cards. In addition, the PMO is providing guidance
                            and tools to help facilitate the components’ implementation of HSPD-12. The

4
  For HSPD-12 implementation, DHS defines headquarters as the offices and components that are currently issued
security badges by the DHS Office of Security, such as Management, Science and Technology, United States Visitor and
Immigrant Status Indicator Technology, and Office of Inspector General. The remaining eight components, Customs
and Border Protection, Citizenship and Immigration Services, Federal Emergency Management Agency, Federal Law
Enforcement Training Center, Immigration and Customs Enforcement, Transportation Security Administration, United
States Coast Guard, and United States Secret Service are responsible for implementing HSPD-12 at their components.
5
  It is reported in OMB’s FY 2006 Report to Congress on Implementation of the Federal Information Security
Management Act of 2002 that DHS has 207,776 employees and contractors.


    Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                           Page 4
                        components are responsible for creating their own implementation plan based
                        on their unique circumstances and will use DHS headquarters processes and
                        its technical solution.

                        According to the PMO’s plan, DHS will implement HSPD-12 in three phases.
                        Figure 2 graphically shows DHS’ implementation approach.

                            • 	 Phase I-DHS Headquarters Implementation At DHS headquarters,
                                the PMO implements policies, procedures, and other supporting tasks,
                                not included in the OCIO's HSPD-12 responsibilities, to comply with
                                HSPD-12. This phase establishes the baseline from which lessons
                                learned and best practices are developed for later phases. Phase I
                                started in May 2006.
                            • 	 Phase II-Component Rollout HSPD-12 rolls out to the components.
                                The components assess their HSPD-12 requirements, develop, or
                                update their policies and procedures, construct or select their PIV card
                                issuance systems, and implement HSPD-12 solutions, enabling the
                                department to achieve compliance. Phase II started in January 2007.
                            • 	 Phase III-Legacy Cardholder Migration This final phase facilitates
                                 the conversion of current employees and contractors from holding
                                 existing DHS badges to receiving PIV-compliant badges. Phase III is
                                 estimated to begin in December 2007.

                        Figure 2: Phases of DHS’ Implementation of HSPD-12

                           Phase I                      Phase II                       Phase III


                         DHS HQ                                                   Legacy Cardholder
                                                   Component Rollout
                       Implementation                                                 Migration


                  Comply with HSPD-12 at          Rollout HQ HSPD-12           Convert legacy contractors
                   the HQ level to develop      compliance framework to         and employees from the
                   the baseline framework        components and guide         existing DHS badges to PIV
                    for other components.       compliance across DHS.              compliant badges.



                        DHS also took other actions:
                            • 	 The PMO developed a Component Implementation Guidance Package,
                                which includes the DHS Headquarters HSPD-12 Procedures
                                Reference Book that documents the process to enroll applicants and
                                issue PIV cards.
                            • 	 The PMO prepared a privacy impact assessment, dated
                                October 13, 2006, to detail what personally identifiable information,
                                used for issuing credentials and meeting HSPD-12 requirements, is

Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                       Page 5
                                    being collected, why it is being collected, how the information will be
                                    used and shared, how the information may be accessed, and how it will
                                    be stored securely.
                                •	 The PMO established an HSPD-12 Council, with representatives
                                   selected by the Chief Security Officer from each component, to
                                   facilitate the implementation of HSPD-12 throughout the department.
                                •	 DHS’ public key infrastructure has been cross-certified with the
                                   Federal Bridge Certification Authority to ensure that all digital
                                   certificates for the PIV cards are issued under the Federal Common
                                   Policy.6
                                •	 DHS provided its PIV card to GSA for testing, as required by OMB.
                                   GSA verified that the card met FIPS 201 requirements.

                           The completion of these tasks fulfills some of the HSPD-12 requirements.
                           However, DHS is experiencing delays. More work remains to ensure that
                           DHS is fully compliant with HSPD-12 and OMB-established timeframes and
                           requirements for developing a technical solution and issuing PIV cards to its
                           employees and contractors. See Figure 3 for OMB milestones and DHS
                           timeline.

                           Figure 3: OMB Milestones and DHS Timeline




6
  The public key infrastructure is a combination of products, services, facilities, policies and procedures, agreements, and
people that provide for and sustain secure interactions on open networks such as the Internet. The public key
infrastructure uses a security technique called Public Key Cryptography to authenticate users and data, protect the
integrity of transmitted data, and ensure the non-repudiation and confidentiality of data.


     Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                          Page 6
     Better Management of HSPD-12 Implementation Is Needed
                        DHS has not effectively managed the implementation of its HSPD-12
                        program to ensure that the department can meet all mandated milestones.
                        DHS has not completed the actions needed to finish Phase I of its
                        implementation plan and comply with PIV-I and PIV-II requirements.
                        Specifically, DHS has not identified the requirements for the usage of PIV
                        cards and determined its total costs to implement HSPD-12. In addition, DHS
                        has not accredited its PIV-I process or its PIV card issuance service. Further,
                        DHS has not provided its components with sufficient guidance for their
                        individual implementation of HSPD-12, and has not complied with OMB
                        implementation reporting instructions.

                        DHS Is Behind In Its Implementation Schedule and May Not Meet OMB
                        Milestones

                        DHS’ implementation schedule does not ensure that the department will be
                        HSPD-12 compliant within OMB’s established timeline. Federal agencies are
                        required to phase in the issuance and use of PIV cards for all new employees
                        and contractors by October 27, 2007, and complete the issuance of PIV cards
                        to all employees by October 27, 2008. DHS is not scheduled to complete its
                        HSPD-12 implementation until 2010, which is 2 years after the mandated
                        deadline for all agencies, as stated in OMB memorandum M-05-04.

                        PMO officials maintain in their implementation plan that DHS is transitioning
                        from Phase I to Phase II. In order to complete the implementation of Phase I,
                        DHS was to have accomplished key tasks, such as assess costs, initiate
                        component support, bring the headquarters system to production readiness,
                        and begin PIV card issuance at headquarters. However, DHS has completed
                        only its initiation of component support, one of its four key tasks. The
                        department is experiencing delays in developing a technical solution capable
                        of interfacing with other existing external and internal DHS systems and is
                        therefore unable to issue PIV cards to its employees and contractors. The
                        PMO has reported to OMB that it has completed Phase I of its implementation
                        plan.

                        According to its Phase II implementation, DHS is scheduled to begin issuing
                        PIV cards to new headquarters employees and contractors by December 2007,
                        and components are to begin to issue PIV cards to their new employees and
                        contractors by January 2008. DHS plans to use a contractor to develop its
                        production system. However, as of July 2007, no award has been made. For
                        Phase III implementation, DHS and its components are scheduled to begin
                        issuing PIV cards to current employees and contractors in July 2009 and
                        ending September 2010.



Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                       Page 7
                        According to program officials, OMB concurred with DHS’ extended
                        timetable for HSPD-12 implementation. OMB’s Deputy General Counsel
                        confirmed that DHS had been granted an extended timetable to implement
                        HSPD-12. Specifically, OMB approved the following extended milestones
                        for DHS:
                            • 	 Begin issuing PIV cards to employees and contractors in 

                                December 2007. 

                            • 	 Complete issuing PIV cards to 80% of the workforce by 

                                December 2008. 

                            • 	 Complete issuing PIV cards to the remaining 20% of the workforce by
                                December 2010.

                        Even with OMB’s extension, the department’s current implementation
                        schedule does not guarantee that DHS and its components will meet OMB’s
                        milestones to issue PIV cards to 80% of its workforce (approximately 168,000
                        employees and contractors) by December 2008. Based on its implementation
                        plan, DHS and its components only plan to issue PIV cards to new employees
                        and contractors in 2008 and are not scheduled to issue PIV cards to the
                        majority of its workforce (current employees and contractors) until July 2009.
                        Furthermore, DHS will not have the capability to issue PIV cards to its
                        employees and contractors until its new production system becomes
                        operational. According to program officials, the new technical solution is
                        planned to be operational in December 2007.

                        Requirements for PIV Card Usage Have Not Been Determined

                        DHS and its components have not identified to what extent PIV cards will be
                        used or required in order to access facilities or information systems
                        throughout the department. DHS has not determined which facilities will
                        require PIV cards in order to gain physical access, whether PIV cards will be
                        used for accessing information systems, and which systems will be affected.

                        The determination as to the usage of PIV cards is important because the cards
                        will be personalized in order to perform identity verification both by people
                        and by automated systems. People can use the physical card for visual
                        comparisons and automated systems can use the electronically stored data on
                        the card to conduct automated identity verification. Without determination of
                        usage, DHS may have to upgrade its infrastructure; procure additional
                        equipment, for example, card readers; or make modifications to the PIV cards
                        to include additional information after the cards are issued.




Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                       Page 8
                        Costs to Implement HSPD-12 Have Not Been Assessed

                        To comply with PIV-II, agencies were required to demonstrate their ability to
                        issue PIV cards by October 27, 2006. By this date, agencies were further
                        tasked to begin to issue and require the use of PIV cards for all new
                        employees and contractors. To assist agencies in meeting these timeframes,
                        GSA established a shared services solution, which all federal agencies could
                        use that includes registering employees and contractors, verifying their
                        identities, and producing and issuing PIV cards.

                        GSA provides a complete solution for the enrollment, production, finalization,
                        and on-going maintenance of HSPD-12 compliant credentials. Participating
                        agencies who sign up with GSA receive an identity account for each
                        cardholder with a secure HSPD-12 compliant credential; four public key
                        infrastructure certificates; two fingerprint templates; secure backend
                        cardholder and card management system; a nation-wide network of fixed and
                        mobile enrollment stations shared by all participating agencies; help desk and
                        maintenance support for the credential; and secure entry of personnel into the
                        system. Additionally, GSA will provide all acquisition, financial and program
                        management services. GSA is also responsible for the security and
                        accreditation of the system.

                        GSA had originally estimated that it would charge federal agencies $110 (plus
                        an annual maintenance fee of $52) to issue a PIV card. GSA revised its
                        estimate in June 2007 and lowered the cost to $82 per PIV card (plus an
                        annual maintenance fee of $36). Using GSA’s revised estimate, it would cost
                        DHS approximately $17 million to issue PIV cards to its roughly 210,000
                        employees and contractors with an annual maintenance fee of $7.5 million.

                        DHS decided not to use the GSA’s solution. DHS envisioned interfacing
                        three of its existing systems, which supported current initiatives in identity
                        management, public key infrastructure, and the use of smart cards as its
                        technical HSPD-12 solution. DHS officials believed the department could
                        enhance, upgrade, and interface with these existing systems to issue PIV cards
                        at a cost lower than GSA’s shared services solution. However, DHS did not
                        perform a cost benefit analysis to support its decision not to use GSA’s
                        solution.

                        As of May 2007, DHS has not developed cost projections for implementing
                        HSPD-12 at its headquarters and components. The PMO has budgeted
                        approximately $1.5 million to implement HSPD-12 at the headquarters for
                        fiscal year 2008 to cover PMO salaries, contract services, and the purchase of
                        PIV cards. The remaining eight components have yet to develop their own
                        cost estimates or budgets necessary to implement HSPD-12.



Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                       Page 9
                        Without developing a total estimate, DHS does not know the most cost
                        effective solution and places in jeopardy its implementation of HSPD-12.
                        Further, DHS has not determined whether it has allocated enough resources to
                        issue PIV cards to its employees and contractors. For example, DHS and its
                        components will be required to purchase the hardware and software necessary
                        to issue PIV cards. Furthermore, DHS may have to allocate additional
                        resources to replace existing card readers with newer models for physical
                        access and upgrade network infrastructure for accessing to information
                        systems that are compatible with the PIV cards. Since the planned use of PIV
                        cards throughout the department has not been determined, DHS does not
                        know how many new card readers are needed to replace existing equipment
                        and cannot assess the complete cost to implement HSPD-12.

                        Agency Head Has Not Accredited PIV-I Processes

                        The Secretary has not accredited the two PIV-I processes. Agencies were
                        required to comply by October 27, 2005, with the first HSPD-12 milestone
                        (PIV-I).

                        To satisfy the PIV-I milestone, agency heads were required to adopt and
                        accredit (1) an identity proofing and registration process, and (2) a PIV card
                        issuance and maintenance process. The identity proofing and registration
                        process refers to the collecting, storing, and maintaining of all information and
                        documentation that is required for verifying and assuring the applicant’s
                        identity. The card issuance and maintenance process should include
                        standardized specifications for printing photographs, names, and other
                        information on PIV cards; loading relevant electronic applications into a
                        card’s memory; capturing and storing biometric and other data; issuing and
                        distributing digital certificates; and managing and disseminating certificate
                        status information.

                        According to a PMO official, while the Secretary did not accredit the two
                        processes by October 27, 2005, the Deputy Chief Security Officer accredited
                        DHS’ PIV Card Issuer (PCI) service in October 2006. The PMO official said
                        that PCI service accreditation satisfied FIPS 201 PIV-I requirements. While
                        the management and performance of the accreditation activity may be
                        delegated, NIST emphasized that agency heads are required to approve
                        FIPS 201 PIV-I accreditation personally. Further, there exist serious
                        shortcomings in the accreditation of PCI services as reported below.

                        PCI Services Must Be Re-accredited

                        DHS did not adequately assess the capabilities and reliability, along with other
                        required and desired attributes, of its PCI services in fulfilling FIPS 201
                        requirements during the certification and accreditation process. A PCI service


Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                      Page 10
                            is an authorized PIV Card issuing organization that procures FIPS 201
                            compliant blank cards, personalizes the cards with the identity credentials of
                            the authorized subjects, and delivers the personalized cards to the authorized
                            applicants. DHS must re-accredit its headquarters PCI services once it has
                            fully developed an operational system with the capability to issue PIV cards.

                            DHS accredited its headquarters PCI services on October 19, 2006. The
                            certification agent concluded that after assessing the required and desired
                            attributes, the DHS PCI had demonstrated that the DHS PIV issuance system
                            adequately met the intent and content of NIST Special Publication
                            (SP) 800-79.7 However, when the PCI services were accredited, DHS did not
                            have an operational system that could produce PIV cards in a production
                            environment, as DHS was still in the process of developing its technical
                            solution, called Identification and Credential Issuing Station and System
                            (ICISS). Furthermore, no stress testing was performed on ICISS to evaluate
                            whether the system had the capabilities to produce PIV cards in large
                            quantities.

                            In December 2006, after PCI accreditation, the ICISS development team
                            determined that the system could not issue more than five PIV cards before
                            crashing. This situation occurred because DHS accepted the certification
                            agent’s accreditation when it lacked a production system capable of producing
                            PIV cards in large quantity.

                            HSPD-12 specifies that the reliability of a PCI be officially accredited before
                            PIV cards can be issued. NIST requires that the accreditation package
                            document the results of the certification phase and provides the Designated
                            Accreditation Authority with the essential information needed to make a
                            credible, risk-based decision on whether to authorize operation of the PCI.
                            The accreditation package should contain the following documents:
                            (1) Operations Plan, (2) Assessment Report, and (3) Corrective Action Plan.
                            The Operations Plan should further provide supporting material and identity
                            management-related documents, such as the PCI’s privacy policy for
                            applicants, and descriptions of procedures for assuring reliable operation.

                            Obtaining adequate and reliable equipment to support the services provided by
                            the PCI is fundamental to success of its operations. Accreditation of a PCI is
                            the official management decision of the Designated Accreditation Authority to
                            authorize operation of a PCI after determining that the PCI’s reliability has


7
  To assess the reliability of a PCI during the accreditation process, NIST published SP 800-79 with a set of guidelines
for federal agencies that issue or prepare to issue FIPS 201 compliant PIV cards to their employees and/or contractors.
These guidelines describe a set of attributes that should be exhibited by a PCI in order to be accredited. NIST
recommends agencies use these guidelines for assessing the reliability of any organization providing its PCI services.



    Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                          Page 11
                            satisfactorily been established through appropriate assessment and
                            certification processes.

                            Reliability is the primary attribute to be exhibited and accredited in a PCI and
                            is the characteristic of an organization that requires functions to be performed
                            and services provided as expected, and that this expectation will continue in
                            the future. NIST recommends that a PCI’s reliability be evaluated and
                            established by assessing whether the PCI is knowledgeable, capable,
                            accountable, available, legal, compliant, well managed, trustworthy, and
                            adequately supported. If one or more of the required attributes are not present
                            or not expected to continue in the future, then accreditation should be
                            postponed or denied.

                            Component Implementation Guidance Needs to be Updated

                            In February 2007, DHS developed a Component Implementation Guidance
                            Package (Guidance Package) to provide instructions for components to
                            implement HSPD-12. The Guidance Package contains DHS’ HSPD-12
                            policy, FIPS 201, DHS HQ HSPD-12 Procedures Reference Book (Reference
                            Book), and other NIST special publications. In preparing the package, DHS
                            omitted essential information needed by the components to obtain operational
                            and technical compliance with HSPD-12. For example, the guidance package
                            does not define PIV card specifications, PIV card and middleware
                            conformance testing, and PIV reader specifications.8

                            Furthermore, while the Reference Book contains detailed instructions on
                            issuing PIV cards to new employees and contractors, it does not contain
                            procedures relating to current employees and contractors. We also identified
                            the following deficiencies in the Reference Book that DHS must revise to
                            ensure the successful implementation of HSPD-12:

                            • 	 The timeframe for a PIV cardholder to notify a supervisor and security
                                officer of a lost, stolen, or compromised PIV card contradicts with a
                                FIPS 201 requirement. The Reference Book requires PIV cardholders to
                                report lost, stolen, or compromised PIV card within 24 hours. FIPS 201
                                requires PIV cardholders to report lost, stolen, or compromised PIV card
                                within 18 hours.
                            • 	 The length of personal identification numbers (PIN) and emergency
                                notification procedures to inform supervisors and security in the event of

8
 SP 800-73-1, Interfaces for Personal Identity Verifications, March 2006; SP 800-76-1, Biometric Data Specification for
Personal Identification Verification, January 2007, and SP 800-78, Cryptographic Algorithms and Key Sizes for
Personal Identity Verification, April 2005; SP 800-85A, PIV Card Application and Middleware Interface Test
Guidelines (SP 800-73 compliance), April 2006, SP 800-85B, PIV Data Model Conformance Test Guidelines, July 2006,
and SP 800-96, PIV Card/Reader Interoperability Guidelines, September 2006.


    Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                          Page 12
                                lost, damaged, and compromised PIV cards have not been established.
                                The Reference Book only advises applicants to choose a PIN carefully but
                                does not specify the length of the PIN, and does not contain emergency
                                notification procedures.
                            • 	 Separation of duties needs to be established to ensure that one person
                                cannot issue a PIV card to a person not entitled to the card or issue a card
                                with incorrect information. The Reference Book allows the same person
                                to fill the Access Control Officer specialist, enrollment officer, and PIV
                                issuer roles. FIPS 201 requires that the roles of PIV Applicant, Sponsor,
                                Registrar, and Issuer are mutually exclusive and that no individual shall
                                hold more than one of these roles in the identity proofing and registration
                                process.
                            • 	 Account lockout does not meet DHS requirements. The Reference Book
                                allows cardholders ten attempts to gain logical access with their PIV card
                                and PIN before the card is locked out. DHS 4300A Sensitive Systems
                                Handbook requires that the user account should be locked out after three
                                failed login attempts.

                            Without adequate guidance from the PMO, there is little assurance that the
                            implementation of HSPD-12 across the department will be successful and
                            effective in securing DHS facilities and information systems.

                            PIV Card Issuance Statistics Not Posted On Public Website

                            OMB requires federal agencies to post on their public websites, beginning
                            March 1, 2007, a quarterly status report on the total number of employees
                            requiring PIV cards, and the number of PIV cards that have been issued to
                            their employees, contractors, and visitors. OMB established this requirement
                            in order to monitor agencies’ progress in implementing HSPD-12.9

                            Citing operational security concerns associated with posting such information
                            on its public website, DHS drafted a letter to OMB listing its reasons not to
                            comply with this requirement. As cited in DHS’ letter, revealing the total
                            number of employees requiring PIV cards poses security vulnerability when
                            compared against the total number of PIV cards issued. Furthermore,
                            according to DHS, the public release of this information could reveal DHS’
                            HSPD-12 readiness and may result in data mining by individuals attempting
                            to identify employees at agencies that are not compliant, or have not fully
                            implemented HSPD-12 requirements. However, other federal agencies have
                            posted this information to their websites, including the Agriculture
                            Department, Commerce Department, Defense Department, Energy

9
 OMB M-07-06, Validating and Monitoring Agency Issuance of Personal Identity Verification Credentials, dated
January 11, 2007.


    Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                          Page 13
                        Department, Justice Department, State Department, Transportation
                        Department, Treasury Department, and Veterans Affairs Department. OMB’s
                        Deputy General Counsel said that DHS has not formally voiced any concerns
                        for not complying with this reporting requirement.

     DHS Is Not Ready to Issue HSPD-12 Compliant Cards
                        DHS does not have a certified and accredited operational system to support
                        the implementation of HSPD-12. Specifically, DHS has not acquired the
                        capability to issue PIV cards to its headquarters employees and contractors,
                        and bring its system to production readiness.

                        PMO Needs to Bring Headquarters System to Production Readiness

                        DHS does not have a production system having the capability to support the
                        implementation of HSPD-12 by issuing PIV cards to its employees and
                        contractors. Without a viable system, DHS cannot meet OMB’s milestones
                        and ultimately improve physical and logical security at its facilities and for its
                        information systems.

                        In June 2006, DHS tasked a contractor to upgrade and enhance the ICISS,
                        develop interfaces to existing HSPD-12 preproduction systems, and perform
                        work to certify and accredit ICISS. During a functional test in
                        December 2006, DHS determined that ICISS could not perform all of the
                        system requirements and could not interface with other existing external and
                        internal DHS systems. In addition, the system crashed after producing five
                        PIV cards. No stress testing had been performed to determine the system's
                        capacity and whether ICISS would be able to support DHS’ workload.
                        Furthermore, ICISS could not accept all identity documents that are listed in
                        OMB Form I-9, which DHS accepts as evidence to verify applicants’
                        identities. See Appendix D for a list of OMB acceptable documents.

                        Due to the technical issues identified with ICISS, DHS officials are in the
                        process of issuing a new contract. The new contract will task the contractor to
                        deliver a new technical solution that will provide an end-to-end PIV solution,
                        including required interfaces. According to the PMO’s April 20, 2007
                        implementation schedule, the headquarters system would be production ready
                        by July 2007 and will begin issuing PIV cards to new headquarters employees
                        and contractors by December 2007. As of July 2007, no contract had been let.
                        Nonetheless, DHS officials expect to have a new technical solution
                        operational by the end of 2007, 6 months behind its implementation schedule.




Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                      Page 14
                        Certification of ICISS Was Inadequate and Not Independent

                        The certification of ICISS was inadequately performed and the certification
                        agent was not independent of the development team. The goal established by
                        DHS was to have ICISS certified and accredited by September 30, 2006.

                        The contractor who developed ICISS was requested, as certification agent, to
                        conduct security testing to evaluate the effectiveness of controls implemented.
                        The certification agent is an individual, group, or organization responsible for
                        conducting a security certification, or comprehensive assessment of the
                        controls implemented on an information system to determine whether the
                        controls are implemented correctly, operating as intended, and producing the
                        desired outcome with respect to meeting the security requirements for the
                        system. The certification agent also provides recommended corrective actions
                        to reduce or eliminate vulnerabilities in the information system. Furthermore,
                        prior to initiating the security assessment activities that are a part of the
                        certification process, the certification agent also provides an independent
                        assessment of the system security plan to ensure the plan provides a set of
                        security controls for the information system that is adequate to meet all
                        applicable security requirements.

                        The effectiveness of the controls implemented on ICISS and other
                        interconnected systems was not evaluated in a production environment.
                        Security testing was performed only in the test environment. In addition, the
                        contractor was tasked to prepare security documents, such as the system
                        security plan, risk assessment, and system test and evaluation plan, to support
                        the accreditation decision. When ICISS was accredited with an authority to
                        operate for a period of 1 year, on October 20, 2006, the system was still in
                        development and interfaces with other systems that are required to perform
                        fingerprint checks and control PIV cardholders’ access to facilities had not
                        been established.

                        The information and supporting evidence needed for security accreditation is
                        developed during a detailed security review of an information system,
                        typically referred to as security certification. Security certification is a
                        comprehensive assessment of the management, operational, and technical
                        security controls in an information system, made in support of security
                        accreditation, to determine the extent to which the controls are implemented
                        correctly, operating as intended, and producing the desired outcome with
                        respect to meeting the security requirements for the system.

                        Security accreditation is the official management decision given by a senior
                        agency official to authorize operation of an information system and to
                        explicitly accept the risk to agency operations, agency assets, or individuals
                        based on the implementation of an agreed-upon set of security controls. By


Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                      Page 15
                        accrediting an information system, an agency official accepts responsibility
                        for the security of the system and is fully accountable for any adverse impacts
                        to the agency if a breach of security occurs. Without an independent and
                        thorough assessment of the system, the accreditation official was not provided
                        with the most complete, accurate, and trustworthy information possible. The
                        security status of the information system is needed in order to make timely,
                        credible, risk-based decisions on whether to authorize operation of the system.

                        To preserve the impartial and unbiased nature of the security certification, the
                        certification agent should be independent from the persons directly
                        responsible for the development of the information system and the day-to-day
                        operation of the system. NIST recommends that the certification agent be
                        independent of those individuals responsible for correcting security
                        deficiencies identified during the security certification. When the potential
                        agency-level impact of the system is moderate or high, certification agent
                        independence is needed and justified.

              Recommendations
                        We recommend that the Under Secretary for Management direct the DHS
                        HSPD-12 PMO to:

                        Recommendation #1: Evaluate DHS’ implementation plan and take
                        necessary steps to include the identification of additional resources to ensure
                        that milestones are met or exceeded and that further delays are avoided.

                        Recommendation #2: Develop a department-wide cost estimate to ensure the
                        determination of the most cost effective technical solution and also ensure that
                        sufficient resources are allocated to implement HSPD-12.

                        Recommendation #3: Work with all DHS components to identify the
                        facilities access points and information systems where the PIV cards will be
                        required.

                        Recommendation #4: Ensure that the agency head accredits the PIV-I
                        processes. In addition, the DHS PMO should re-accredit the headquarters PCI
                        services after the PIV system becomes operational and supporting
                        documentation is revised to include all required information.

                        Recommendation #5: Revise component guidance to include procedures for
                        issuing PIV cards, including adequate separation of duties, in compliance with
                        FIPS 201 and DHS requirements.

                        Recommendation #6: Perform the certification and accreditation of the
                        information systems used to implement HSPD-12 and FIPS 201 in accordance


Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                      Page 16
                        with applicable NIST and DHS guidance. In addition, the HSPD-12 PMO
                        should provide agency officials with the most accurate information to make
                        credible, risk-based decisions on whether to authorize a system to operate.

                        Recommendation #7: Ensure that OMB reporting statistics are posted on
                        DHS’ website.


              Management Comments and OIG Analysis
                        We obtained written comments on a draft of this report from the Under
                        Secretary for Management. Generally, the Under Secretary agreed with the
                        report’s findings and recommendations. Where appropriate, we made changes
                        to the body of the report to address the Under Secretary’s comments. We
                        have included a copy of the comments in its entirety as Appendix B.

                        DHS concurred with recommendation 1. The PMO continues to evaluate its
                        implementation plan to promote a balanced approach for resource allocation.
                        On August 2, 2007, a request for contract proposal was issued to procure an
                        identity management system and credentialing issuance and maintenance
                        support. When the contract is awarded, it will provide a means to deploy a
                        unified system across the department for issuing a secure and tamper-proof
                        smart card that allows interoperable access to DHS facilities and information
                        systems.

                        We agree that the steps the PMO is taking, and plans to take, begin to satisfy
                        this recommendation. However, the PMO did not fully address our
                        recommendation to evaluate its implementation plan to ensure that milestones
                        are met and future delays are avoided.

                        DHS concurred with recommendation 2. In May 2007, the PMO completed
                        an independent government cost estimate, as a baseline, to evaluate the cost of
                        implementing HSPD-12 throughout the department. However, each
                        component has the responsibility for identifying and budgeting resources to
                        implement its HSPD-12 efforts. The PMO will continue to work with the
                        components to develop a proper budget estimate to implement HSPD-12.

                        We agree that the steps the PMO has taken, and plans to take, satisfy this
                        recommendation.

                        DHS concurred with recommendation 3. The PMO has requested that the
                        components identify their current and future requirements for facilities,
                        physical and logical access controls, and provide this information to the PMO.

                        We agree that the steps the PMO plans to take satisfy this recommendation.


Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                      Page 17
                        DHS concurred with recommendation 4. Once the new technical solution is
                        in place, the PMO will re-certify and accredit DHS’ PCI service to ensure that
                        there is complete integration between the operational procedures and the
                        technical capability, and DHS remains in compliance with FIPS 201 and other
                        applicable NIST special publications. However, the PMO continues to
                        maintain that when the Deputy Chief Security Officer accredited DHS’ PCI
                        service in October 2006, it satisfied FIPS 201 PIV-I requirements.

                        We agree that the steps the PMO plans to take begin to satisfy this
                        recommendation. However, we maintain that the agency head should accredit
                        the PIV-I processes. FIPS 201, which is compulsory and binding for federal
                        agencies, requires agency heads to accredit the processes personally.

                        DHS concurred with recommendation 5. The PMO has established the
                        required separation of duties in the Reference Book.

                        We agree that the steps the PMO has taken begin to satisfy this
                        recommendation. However, the PMO did not fully address our
                        recommendation to include procedures in the Reference Book on issuing PIV
                        cards to current employees and contractors, notifying supervisor and security
                        office within 18 hours in the event of a lost, stolen, or compromised PIV card,
                        specifying the length of PIN, and ensuring that account lockout comply with
                        DHS policy.

                        DHS concurred with recommendation 6. The PMO plans to obtain a new
                        certification and accreditation of the information system used to support
                        HSPD-12 at DHS headquarters, as part of the process to implement a new
                        technical solution.

                        We agree that the steps DHS plans to take satisfy this recommendation.

                        DHS did not concur with recommendation 7. The Chief Security Officer
                        determined that revealing the total number of employees requiring and
                        carrying PIV cards is not in the best interest of national security. However,
                        the PMO will provide these statistics to OMB using a method other than a
                        public website.

                        We maintain that DHS should comply with OMB reporting instructions and
                        post its HSPD-12 issuance statistics on its website.




Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                      Page 18
Appendix A
Purpose, Scope, and Methodology



                          Our objective was to determine whether DHS has effectively managed the
                          implementation of HSPD-12. We determined whether DHS’: (1) HSPD-12
                          implementation strategy plan is adequate; (2) policies and procedures to
                          implement HSPD-12 requirements are adequate; and (3) security controls
                          implemented to protect the privacy of personal data collected and processed
                          by HSPD-12 systems are effective.

                          To accomplish our audit, we interviewed selected DHS personnel responsible
                          for implementing HSPD-12 requirements. We reviewed the implementation
                          plan, policies, and procedures developed to implement HSPD-12 requirements
                          for compliance with applicable OMB and NIST guidance. We also reviewed
                          selected security documents to evaluate whether security controls were
                          implemented on ICISS to protect the privacy of personal data. In addition, we
                          contacted OMB officials to obtain clarifications on their implementation
                          instructions and feedback on DHS submissions.

                          We did not evaluate DHS’ identity proofing and registration process and PIV
                          card issuance and maintenance process since the department is not issuing
                          PIV cards. In addition, since the department has not implemented a system to
                          produce PIV cards, we could not determine if security controls have been
                          adequately implemented to protect the privacy of personal data collected and
                          processed.

                          We conducted our audit between April 2007 and June 2007 under the
                          authority of the Inspector General Act of 1978, as amended, and according to
                          generally accepted government auditing standards. Major OIG contributors to
                          the audit are identified in Appendix E.

                          The principal OIG points of contact for the audit are Frank W. Deffer,
                          Assistant Inspector General, IT Audits at (202) 254-4100 and
                          Edward G. Coleman, Director, Information Security Audit Division at
                          (202) 254-5444.




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 19
Appendix B
Management Comments to the Draft Report




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 20
Appendix B
Management Comments to the Draft Report




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 21
Appendix B
Management Comments to the Draft Report




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 22
Appendix B
Management Comments to the Draft Report




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 23
Appendix B
Management Comments to the Draft Report




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 24
Appendix B
Management Comments to the Draft Report




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 25
Appendix C
Example of a PIV card




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 26
Appendix D
OMB Form I-9 Lists of Acceptable Documents




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 27
Appendix E
Major Contributors to this Report



                          Information Security Audits Division

                          Edward G. Coleman, Director
                          Jeff Arman, Audit Manager
                          Chiu-Tong Tsang, Audit Team Leader
                          Charles Twitty, Auditor

                          Steven Staats, Referencer




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 28
Appendix F
Report Distribution



                          Department of Homeland Security

                          Secretary
                          Deputy Secretary
                          Chief of Staff
                          Deputy Chief of Staff
                          General Counsel
                          Executive Secretary
                          Assistant Secretary for Policy
                          Assistant Secretary for Public Affairs
                          Assistant Secretary for Legislative Affairs
                          Under Secretary for Management
                          Chief Security Officer
                          Chief Information Officer
                          Deputy Chief Information Officer
                          Chief Information Security Officer
                          Director, Compliance and Oversight Program
                          Director, DHS HSPD-12 Program Management Office
                          Director, DHS GAO/OIG Liaison Office
                          Chief Information Officer Audit Liaison
                          Director, OIG Information Security Audit Division

                          Office of Management and Budget

                          Chief, Homeland Security Branch
                          DHS OIG Budget Examiner

                          Congress

                          Congressional Oversight and Appropriations Committees, as appropriate




  Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential Directive 12 Requirements

                                                        Page 29
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at: 

           DHS Office of Inspector General/MAIL STOP 2600, 

           Attention: Office of Investigations - Hotline, 

           245 Murray Drive, SW, Building 410, Washington, DC 20528. 


The OIG seeks to protect the identity of each writer and caller.
